June 10 2021 CASE NUMBER

IN THE SUPREME COURT OF THE UNITED STATES
ON A PETITION FOR A WRIT OF CERTIORARI
PROOF OF SERVICE
MARK Wade MCCUNE , From Superior Court Tucson Cause no. C 2019 5500
Plaintiff PETITIONER PROOF OF SERVICE
Vs, Defendants, RESPONDENT(S)
PHH MORTGAGE et al,
NOVA HOME LOANS WESTERN PROGRESSIVE ,
PROOF OF SERVICE
I,.Mark wade McCune .., do swear or declare that on this date,
June

, 2021, as required by Supreme Court Rule 29

I have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR
A WRIT OF CERTIORARI on each party to the above proceeding or that party's counsel, and on every
other person required to be served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class postage prepaid, or by
delivery to a third-party commercial carrier for delivery within 3 calendar days. The names and
addresses of those served are as follows:
/
I declare under penalty of perjury that the foregoing is true and correct.
PLAINTIFF MARK MCCUNE,
2131 N Frannea Tucson Az 85712 ph 520 358 0386 tucson99az@vahoo.com
DEPENDENTS name address are Attorney for PHH Mortgage Solomon S. Krotzer
skrotzer@houser-law.com
HOUSER LLP , 2929 N. Central Ave.,
Ste 1560 Phoenix, AZ 85012
P: (480) 428-8370 F: (480) 428-8371, www.houser-law.com
Executed on,June
(Signature)
page 1 of 1

2021 by Mark wade McCune

